SUMMARY OF TERMS

IMPORTANT INFORMATION ABOUT PROCEDURES
FOR OPENING A NEW ACCOUNT

Interest Rates and Interest Charges
Annual percentage Rate
(APR) for Purchases

33.9%

Paying Interest

You will be charged interest from the
transaction posting date.
If you are charged interest, the charge
will not be less than $0.50.
To learn more about factors to
consider when applying for or using a
credit card, visit the website of the
Consumer Financial Protection Bureau
at http://www.consumerfinance.gov/
learnmore

Minimum Interest
Charge
For Credit Card Tips
from the Consumer
Financial Protection
Bureau

Annual Fee

Penalty Fees
 Late Payment
 Returned
Payment

None
Up to $38.
Up to $38.

How We Will Calculate Your Balance:We use a method
called “average daily balance (including new purchases)”. See
the Interest Charges section within this Account Agreement
for more details.
Billing Rights: Information on your rights to dispute
transactions and how to exercise those rights is provided in
the Your Billing Rights section of this Account Agreement.
HELZBERG DIAMONDS
PRIVATE ACCOUNT AGREEMENT
®

This Helzberg Diamonds Private Account Agreement (the “Agreement”)
contains the terms and conditions under which The Bank of Missouri has
agreed to establish a Helzberg Diamonds Private Account (“Account”) for
you. Please read this Agreement carefully before using your Account. Your
application for the Account and your use of the Account as discussed below
constitute your agreement to the terms and conditions of this Agreement.
Whenever stated in this Agreement that we may take certain described
action, this permits us to do so in our sole discretion. Keep this Agreement
for your records so you can refer to it if you have any questions regarding
your Account. This Agreement contains a binding arbitration
provision. Please see the Arbitration and Litigation Section of this
Agreement for details regarding mandatory arbitration and your right
to opt-out of such arbitration.

To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify, and
record information that identifies each person who opens an account. What
this means for you: When you open an account, we will ask for your name,
address, date of birth, and other information that will allow us to identify you.
We will also ask to see your driver’s license or other identifying documents.

MILITARY LENDING ACT NOTICE

Federal law provides important protections to members of the Armed Forces
and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or
her dependent may not exceed an annual percentage rate of 36 percent.This
rate must include, as applicable to the credit transaction or account:The costs
associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than
certain application fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation fees for a credit
card account).To hear this same disclosure and a general description of your
payment obligations for this Account, please call us toll-free at: 866-875-5929.
Any provisions of this Agreement that are inconsistent with the Military Lending Act (“MLA”), 10 U.S.C. § 987, and its implementing regulations (32 C.F.R.
Part 232) shall not apply to Covered Borrowers.The term “Covered Borrower” has the meaning set forth In 32 C.F.R. § 232.3(g). In general, a Covered
Borrower is a customer who, at the time the customer establishes an Account,
is either (i) a member of the Armed Forces serving on active duty, or active
Guard and Reserve duty; or (ii) a dependent of such an active duty service
member.The MLA’s limitations on interest and fees apply to individuals while
they are Covered Borrowers, and any interest or fees charged to Covered
Borrowers in excess of the permitted limit shall be reduced by the amount
necessary to satisfy that limit. If you cease to be a Covered Borrower, then
the interest and fee limitations of the MLA will no longer apply.The Arbitration and Litigation Provision set forth in this Agreement does not apply to an
Account opened by a Covered Borrower, even if you cease to be a Covered
Borrower after your Account is opened.

DEFINITIONS

“Account” means your Helzberg Diamonds Private Account.
“Billing Cycle” means a monthly billing period which begins on or about the
same day each month.
“Credit Limit” means the maximum amount of credit we have approved for
you on your Account which may be outstanding at any time.
“Purchase” means credit we extend to you on your Account when you
present your Account number to purchase goods and/or services and we pay
Helzberg Diamonds on your behalf for the transaction.
“Statement” means the periodic billing statement reflecting transactions and
payments made on your Account.We will send you a Statement at the end of
any Billing Cycle in which (i) we owe you, or you owe us, more than $1; (ii) we
impose any charge on your Account; or (iii) any payment, credit, or Purchase is
posted to your Account.
“Statement Closing Date” means the last day of any Billing Cycle.
“We,” “us,” or “our,” refers to The Bank of Missouri, except as otherwise
specifically provided in this Agreement.
“You,” and “your” refer to the person who applied for or uses the Account.

USING YOUR ACCOUNT

Acceptance. You agree to the terms and conditions set forth in this Agreement when you (a) sign, use, or permit others to use the Account, (b) sign
or permit others to sign sales slips, or (c) make or permit others to make
purchases by telephone, internet, or any other means.You agree to use
your Account in accordance with this Agreement.You agree to pay us for all
amounts due on your Account.
Purchasing with your Account. You may use your Account to make Purchases. Each time you use your Account, you are requesting that we advance credit

in the amount of the Purchase, which will also reduce your available credit by
the amount of the Purchase. Any refund, adjustment or credit allowed with
respect to a prior Purchase shall not be made in cash but rather shall be a
credit to your Account. Purchases will require our authorization.You agree
that neither we nor our agents shall be liable for refusing an authorization
request.Your Account must only be used for lawful transactions.
Changes to this Agreement. The rates, fees and terms of this Agreement
may change from time to time. We may add or delete any term to this
Agreement. If required by law, we will give you advance written notice of the
change(s) and the right to reject the change(s).We will not charge any fee or
interest charge that is prohibited by law.
Credit Limit. We will determine the available Credit Limit on your Account.
You must keep your Account balance below your assigned Credit Limit. If
you do not, you must immediately pay us the amount by which you have
exceeded your Credit Limit.We may increase or decrease your Credit Limit
without notice.We may delay increasing your available credit by the amount
of any payment that we receive for up to fourteen (14) calendar days.You
can use your Account to make Purchases, so long as you do not exceed your
Credit Limit and are in compliance with this Agreement.
Unauthorized Users. You must notify us immediately if you believe someone is using your Account without your permission.

FEES

Late Payment Fee. If we do not receive your monthly Minimum Payment
Due by the Statement Closing Date of the Billing Cycle in which the Payment Due Date occurs and the amount past due is more than $9.99, we
will apply a Late Payment Fee to your Account.The Late Payment Fee is $27
if you were not charged a Late Payment Fee during any of the prior six (6)
Billing Cycles. Otherwise, the Late Payment Fee is $38.The Late Payment
Fee will never exceed the amount of your most recently required monthly
minimum payment.
Returned Payment Fee. If any payment on your Account is returned to
us unpaid for any reason, we will apply a Returned Payment Fee to your
Account.The Returned Payment Fee is $27 if you were not charged a Returned Payment Fee during any of the prior six (6) Billing Cycles. Otherwise,
the Returned Payment Fee is $38.The Returned Payment Fee will never
exceed the monthly minimum payment.
Documentation Fee. If you request a copy of a Statement previously sent
to you, we may charge to your Account a Documentation Fee of $3 per
Statement.We may also charge to your Account a Documentation Fee
of $10 for each copy of a sales ticket or other item you request that has
previously posted to your Account.We will not impose any fee in connection with a good faith assertion of a billing error or other exercise of your
Billing Rights (see below under “Your Billing Rights - Keep This Document for
Future Use”).

HOW WE CALCULATE YOUR INTEREST CHARGES;
PERIODIC RATE; APR

Interest Charges. An Interest Charge on Purchases will be imposed from
the date a Purchase is posted to your Account until it is paid in full.There is
no grace period on Purchases. Please also see “Deferred Interest Purchases”
below.
How we Calculate your Interest Charges. The Interest Charge on Purchases is calculated using the average daily balance method, including new
purchases. Under this method, the Interest Charge for a Billing Cycle is computed by multiplying the “Average Daily Balance” for Purchases outstanding
during the monthly Billing Cycle by the monthly Periodic Rate.The monthly
Periodic Rate is calculated as set forth below.The Average Daily Balance is
computed by taking the beginning balance of your Account on each day, adding new Purchases, and subtracting any payments or credits to get each day’s
daily balance.The daily balances are then added together and divided by the
number of days in the Billing Cycle to arrive at the Average Daily Balance.

Periodic Rate. To calculate Interest Charges, we multiply the average daily
balance by the monthly Periodic Rate.The monthly Periodic Rate is calculated by dividing the ANNUAL PERCENTAGE RATE by 12 months. For
purposes of this Agreement, the ANNUAL PERCENTAGE RATE (APR) is
33.9%, which corresponds to a monthly Periodic Rate of 2.825%.
Minimum Interest Charge. In any Billing Cycle in which you are subject to
an Interest Charge and the Interest Charge as computed above is less than
$.50 you will be billed a minimum Interest Charge of $0.50.
Deferred Interest Purchases. From time to time, in our sole discretion, we
may offer promotional financing that allows you to defer Interest Charges
on any qualifying Purchase (“Deferred Interest Purchase”). Each Deferred
Interest Purchase will accrue Interest Charges at an APR of 33.9%, but we
will not charge those Interest Charges to your Account if the Deferred
Interest Purchase is paid in full before the end of the Deferred Interest
Period (as described below). Interest on the Deferred Interest Purchase
will be charged to your Account from the date of the Deferred Interest
Purchase if the balance of the Deferred Interest Purchase is not paid in
full within the Deferred Interest Period or if your Account is otherwise in
default.The Deferred Interest Period for each Deferred Interest Purchase
will end 6 months following the Deferred Interest Purchase date.You must
make each monthly Minimum Payment Due during the Deferred Interest
Period.Your Statement will show your Minimum Payment Due and any
Deferred Interest Purchase balance and the Deferred Interest Period. If
you pay only the Minimum Payment Due each Billing Cycle, the payments
may not be sufficient to pay the entire Deferred Interest Purchase balance
within the Deferred Interest Period.You may have to make additional or
increased payments during the Deferred Interest Period to pay the entire
Deferred Interest Purchase balance and avoid having to pay all accrued
Interest Charges.

STATEMENTS and PAYMENTS

Statements. The Statements we send you will reflect Purchases, Interest
Charges, other fees and charges, payments and credits posted to your
Account during the Billing Cycle.The Statements will also show your Minimum Payment Due and Payment Due Date.The information contained
on the Statement will be deemed to be correct unless you advise us of
an error, in writing, within sixty (60) days after we have sent you the first
Statement on which the error or problem appeared.To report a possible
error, please follow the directions set forth in the “Your Billing Rights” section within this Agreement.
Minimum Payment Due. You may pay your Account balance at any time
without penalty.Whenever a balance is due, you must pay at least the
required Minimum Payment Due, which we must receive on or before the
Payment Due Date shown on the Statement.The Payment Due Date will
be at least twenty- five (25) days from the Billing Cycle’s Statement Closing
Date.The Minimum Payment Due in any Billing Cycle will be the greater of:
(i) $15; or (ii) an amount determined based upon the number and amount
of outstanding Purchases, the repayment plan for each Purchase, plus any
fees, past due, or overlimit amounts due on the Account.The repayment
plan for each Purchase is identified on your receipt at the time of Purchase
and on your Statement.
Crediting Payments. Payment must be made by check or other negotiable
instrument payable to us in U.S. Dollars. Do not send cash through the
mail. Payment made through the mail in the form of third-party checks
may not be accepted, and all checks or negotiable instruments must be
payable at a domestic bank or at a domestic office of a foreign bank. Payments will be credited as of date of receipt provided that you (a) send the
payment coupon included with your Statement in the same envelope with
your payment, (b) you include your Account number on your payment,
and (c) your payment arrives at the payment address indicated on the payment coupon in our processing center by 5:00 p.m. Eastern Time. If your
Payment Due Date occurs on a day on which we do not receive payments,
any payment received the next day on which we receive payments which

conforms to the above requirements will not be treated as late. Please
allow at least seven (7) days for postal delivery. Payments received at any
other location or in any other form might not be credited for up to five
(5) business days.
Irregular Payments with Restrictive Words, Conditions or Instructions.
We may accept late payments or partial payments or checks and money
orders marked “payment in full” without waiving any of our rights under
this Agreement. Payments should not be made by post-dated check. If we
receive payment by post-dated check, we may deposit it and shall have no
liability if it is posted or collected prior to the date which appears on the
check.
Payment Processing. We may accept and process payments without losing
any of our rights. Even if we credit your payment to your Account, we
may delay the availability of credit until we confirm that your payment has
cleared. We may resubmit and electronically collect returned payments.
We may also adjust your Account balance as necessary to correct errors,
to process returned and reversed payments, and to handle similar issues.
When you send us a personal check, you authorize us to process the
check electronically. In addition, if a check we process in paper form is returned to us unpaid, you agree that we may re-present the returned check
electronically. We will process your payment using the Automated Clearing
House (ACH) system. Electronically processed checks (and checks
presented electronically) are not returned to you by your bank. We will
retain an image of your electronically processed check as required by law.
We will provide you with a copy of your electronically processed check
upon your request. Please contact the Customer Service Department at
the telephone number on your Statement to learn about other payment
options if you prefer not to have your check used in this way. In the ordinary course of business, your check will not be provided to you with your
Statement; however, a copy can be retrieved by contacting your financial
institution.
How We Apply Your Payments. For each Billing Cycle, we will allocate
payment amounts up to your Minimum Payment Due to charges and principal due (including new transactions) in any manner we determine in accordance with applicable law, and the application of payments may change
from time to time. For each Billing Cycle, to the extent your payments
exceed your Minimum Payment Due, we will apply the excess amount in
the order required by applicable law. During the last two Billing Cycles of a
Deferred Interest Period, if you have an outstanding balance on a Deferred
Interest Purchase, we will apply the excess amount to the balance of the
Deferred Interest Purchase.
CONTACT US
Unless we tell you otherwise, you can contact us regarding your Account:
• by phone at 1-877-722-1741
• in writing to:
Helzberg Diamonds Private Account
P.O. Box 4477
Beaverton, OR 97076
When writing, please include your name, address, home phone number
and Account number.You must contact us within fifteen (15) days of
changing your e-mail address, mailing address or phone number.

OTHER IMPORTANT TERMS AND INFORMATION

Cancellation/Terminating Credit. You may cancel your Account at
any time by writing to us at the address set forth in the CONTACT US
section. In the event of cancellation or termination of your Account, you
will remain responsible for any amount you owe us under this Agreement.Your Account may be automatically cancelled if you fail to abide by
the repayment terms of this Agreement.We can terminate your Account
at any time and for any reason without advance notice. If we do, we will
notify you in writing after the termination. If your Account is terminated,
by you or by us, you will remain liable for any balance due on the Account,

and any Interest Charges, fees or other charges will continue to be
imposed at the rates specified in this Agreement until all sums you
owe are paid in full.
Default. You will be in default of this Agreement thirty-one (31)
days after any of the following occur: (a) you do not make a Minimum Payment Due on your Account on or before the Payment
Due Date, you incur charges for Purchases which exceed your
maximum authorized Credit Limit, or you otherwise fail to comply
with the terms of this Agreement; (b) you become insolvent or
file bankruptcy; (c) you provide us with or have provided us with
false or misleading information or signatures at any time; (d) any
judgement, attachment or execution is issued against you or your
property; (e) you die or become legally incompetent; or (f) we reasonably deem our prospect of repayment to be materially impaired.
Whether or not you are in default, we may immediately terminate
this Agreement without first giving notice to you.You agree to pay
us all amounts due in accordance with this Agreement including
Interest Charges and other fees and charges as provided in this
Agreement until all sums you owe are paid in full. If your Account is
in default, we have all rights and remedies provided by law including
demanding immediate payment in full of your Account, initiating
collection activity, and using any legal means we deem necessary. If
we waive a default, we do not waive the right to declare the same
or another event occurring later as a default of your Account. If we
start collection proceedings to recover amounts you owe us under
this Agreement, you agree to pay all of our costs, expenses, and attorney’s fees except to the extent the payment by you of such costs,
expenses, or fees is prohibited by law.
No Responsibility. We will not be responsible for merchandise or
services purchased through the use of your Account.We have no
liability to you other than as placed on us by law. We will meet our
duty to care for your Account if we comply with reasonable banking
procedures. Our mere clerical error or honest mistake will not be
considered a failure to perform any of our obligations.
Severability. If any provision of this Agreement is invalid or unenforceable under any law, rule or regulations, such provision shall be
considered changed to the extent necessary to comply with the law.
The validity or enforceability of any other provision of this
Agreement shall not be affected.
Binding Effect. Any Purchase made on your Account and occurring
before we receive actual written notice of your default or incompetency will be a valid and binding Account obligation upon you, your
estate and your personal representative.
Notice. Any notices we send you will be considered effective when
it is delivered personally to you or mailed, postage prepaid, to the
last address we have for you in our records. Notice from you will be
considered effective when we receive it at the address shown on
your Statement or at P.O. Box 4477, Beaverton, OR 97076.
Our Communication with You. We may monitor and/or record
telephone calls regarding your Account to verify information and
assure the quality of our service. If you provide a telephone number
to us, you authorize us and any other servicer of your Account to
contact you about your Account at any contact number or other
means of communication you provide, including communications
to a cell phone and communications using an automatic telephone
dialing system or an artificial or prerecorded message.
Our Privacy Policy. You will receive a copy of our privacy policy
when you open your Account. Please read it carefully. It summarizes
the personal information we collect, how we safeguard its confidentiality and security, when it may be shared with others and how you
can limit our sharing of this information.

Monitoring and Reporting to Credit Reporting Agencies. You
authorize us to check your credit history at any time to determine
your eligibility or continued eligibility for the Account or any renewal
or future extension of credit.You authorize your employer, bank
and any other references listed to release and/ or verify information
to us and our affiliates in order to determine your eligibility for the
Account and any renewal or future extension of credit.
We may report to credit reporting agencies. Late payments, missed
payments or other defaults on your Account may be reflected on
your credit report. If you believe that information we reported is
inaccurate or incomplete please write us. Include your name, address,
home phone number and Account number.
Governing Law. This Agreement will be governed by the law of the
State of Missouri as provided by MRS sec § 408.145 and federal law
to the extent it applies.
Assignment. We may sell, assign or transfer your Account or any
portion of it without notice to you. You may not sell, assign or
transfer your Account.
Entire Agreement. This Agreement is a final expression of the
agreement between The Bank of Missouri and you.The Agreement
may not be contradicted by evidence of any alleged oral agreement.
ARBITRATION AND LITIGATION
PLEASE READ THIS PROVISION CAREFULLY. IT PROVIDES
THAT UNLESS YOU ELECT TO OPT-OUT IN THE MANNER
DESCRIBED BELOW, ALL DISPUTES ARISING OUT OF OR
CONNECTED TO THIS AGREEMENT SHALL BE RESOLVED BY
BINDING ARBITRATION, PROVIDED THAT EITHER YOU OR WE
MAY BRING A CLAIM IN SMALL CLAIMS COURT. ARBITRATION
REPLACES THE RIGHT TO GO TO COURT, INCLUDING THE
RIGHT TO HAVE A JURY,TO ENGAGE IN DISCOVERY (EXCEPT
AS MAY BE PROVIDED IN THE ARBITRATION RULES), AND TO
PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING.
IN ARBITRATION, A DISPUTE IS RESOLVED BY AN ARBITRATOR
INSTEAD OF A JUDGE OR JURY. ARBITRATION PROCEDURES
ARE SIMPLER AND MORE LIMITED THAN COURT PROCEDURES.YOU ALSO AGREE ANY ARBITRATION WILL BE LIMITED
TO THE DISPUTE BETWEEN YOU AND US AND WILL NOT BE
PART OF A CLASS-WIDE OR CONSOLIDATED ARBITRATION
PROCEEDING.THIS ARBITRATION AND LITIGATION PROVISION DOES NOT APPLY TO YOU IF, AS OF THE DATE OF THIS
AGREEMENT,YOU ARE A COVERED BORROWER ENTITLED
TO PROTECTION UNDER THE FEDERAL MILITARY LENDING
ACT. PLEASE SEE THE SECTION OF THIS AGREEMENT LABELED
“MILITARY LENDING ACT NOTICE.”
Parties and Matters Subject to Arbitration. “Arbitration” is a
means of having an independent third party resolve a Claim. A
“Claim” is any dispute or controversy of any kind between you
and us.The term Claim is to be given its broadest possible meaning
and includes, without limitation, all claims or demands (whether
past, present or future, including events that occurred prior to the
opening of this Account), based on any legal or equitable theory
(contract, tort, or otherwise) and regardless of the type of relief
sought (i.e., money, injunctive relief or declaratory relief). A Claim
includes, by way of example and without limitation, any claim based
upon a federal or state constitution, statute, ordinance, regulation,
or common law, and any issue concerning the validity, enforceability
or scope of this Agreement or Arbitration Provision. For purposes
of this Provision, the terms “you” and “your” include any person
authorized to use the Account and also includes your heirs, guardian,
personal representative or trustee in bankruptcy.The terms “we,”

“our,” and “us” include our employees, officers, directors, members, managers, attorneys, affiliated companies, predecessors and assigns, as well as our
marketing, servicing and collection representatives and agents.
Agreement to Arbitrate. Any Claim arising out of or relating to this
Agreement, or the breach thereof, shall be resolved and settled exclusively
and finally by binding arbitration, in accordance with this Provision. Binding
arbitration shall not be required, however, for collection actions by us
relating to your Account. Furthermore, both you and we retain the right to
pursue in a small claims court any Claim that is within the court’s jurisdiction, provided the Claim proceeds on an individual basis. However, only a
court of law, not an arbitrator, shall determine the validity and effect of this
Provision’s prohibition of class arbitration. For any Claims covered by this
Provision, the party who asserted a Claim in a lawsuit in court may elect
arbitration with respect to any Claim subsequently asserted in that lawsuit
by any other party.
Choice of Arbitrator. The party filing an arbitration must choose either
of the following arbitration firms for initiating and pursuing an arbitration:
the American Arbitration Association or JAMS (formerly known as Judicial
Arbitration and Mediation Services, Inc.). If you claim you have a Claim with
us, but you do not initiate an arbitration or select an arbitrator, we may do
so.You may obtain copies of the current rules of each of the arbitration
firms and forms and instructions for initiating an arbitration by contacting
them as follows
American Arbitration Association 335 Madison Avenue, Floor 10
New York, NY 10017-4605
Website: www.adr.org
JAMS
1920 Main Street, Suite 300
Irvine, CA 92614
Website: www.jamsadr.com
The policies and procedures of the selected arbitration firm will apply
provided that these are consistent with this Provision.To the extent the
arbitration firm’s rules or procedures are different than the terms of this
Provision, the terms of this Provision will apply.
If neither arbitration firm listed in this agreement is available to resolve the
Claim, you and we may each select a local arbitrator.The local arbitrators
selected by you and us shall then agree upon the selection of another
arbitrator who will hear and resolve the Claim.The arbitrator selected to
resolve the Claim must be an attorney with at least ten (10) years’ experience, retired judge, or arbitrator registered and in good standing with an
arbitration association and arbitrate pursuant to such arbitrator’s rules
applicable to consumer disputes. Notwithstanding the foregoing, no party or
local arbitrator may select an arbitrator who refuses to enforce an arbitration agreement containing a class-action waiver, because you and we have
in this Provision waived any right to arbitrate a dispute on a class-action,
representative-action, or consolidated basis.
Voluntary Waiver of the Right to a Jury Trial and Class Action Participation. As a result of this Provision, neither you nor we have the right to
litigate any Claim in court or the right to a jury trial on any Claim.YOU
AGREE THAT YOU ARE VOLUNTARILY AND KNOWINGLY WAIVING ANY RIGHT YOU MAY HAVE TO GO TO COURT OR TO HAVE
A JURY TRIAL. FURTHERMORE, NEITHER YOU NOR WE MAY SERVE
AS AREPRESENTATIVE, A PRIVATE ATTORNEY GENERAL, OR IN ANY
OTHER REPRESENTATIVE CAPACITY. SIMILARLY, NEITHER YOU NOR
WE MAY PARTICIPATE AS A MEMBER OF A CLASS OF CLAIMANTS IN
A LAWSUIT OF ANY CLAIM.
Prohibition of Class Arbitration. All Claims shall be resolved by binding
arbitration on an individual basis. Claims made and remedies sought as
part of a class action, private attorney general or other representative

action are subject to arbitration on an individual (non-class, non-representative) basis.Therefore, the arbitrator has no authority to conduct class-wide
proceedings and will be restricted to resolving individual Claims. UNDER THIS
ARBITRATION PROVISION THERE IS NO RIGHT OR AUTHORITY FOR
ANY CLAIMS TO BE ARBITRATED ON A CLASS BASIS. Arbitration will only
be conducted on an individual Claim basis and there is no right or authority
to consolidate or join any of your Claims with any other Claims.YOU AGREE
THAT YOU ARE VOLUNTARILY AND KNOWINGLY WAIVING ANY
RIGHT TO PARTICIPATE AS A REPRESENTATIVE OR MEMBER OF ANY
CLASS OF CLAIMANTS PERTAINING TO ANY CLAIM SUBJECT TO ARBITRATION UNDER THIS PROVISION.

reject arbitration.You must give written notice, and it is not sufficient to telephone us. Send only your notice to reject arbitration; do not include the notice
with other correspondence to us.We must receive your letter at the above
address within 60 days after the date this Agreement was provided to you or
your rejection of arbitration will not be effective.

Your Rights If You Are Dissatisfied With Your Account Purchases:
If you are dissatisfied with the goods or services that you have purchased with
your Account, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the
Purchase.

YOUR BILLING RIGHTS - KEEP THIS DOCUMENT FOR
FUTURE USE

Governing Law. This Provision is made pursuant to a transaction involving
interstate commerce and shall be governed by the Federal Arbitration Act, 9
U.S.C.1-16, as it may be amended.The arbitrator will apply applicable Federal
and Missouri substantive law and the terms of this Agreement.The arbitrator
must apply the terms of this Provision, including without limitation the waiver
of class-wide arbitration.The arbitrator will make written findings and the
arbitrator’s award may be filed with any court having jurisdiction.The arbitration award will be supported by substantial evidence and must be consistent
with this Agreement and applicable law or may be set aside by a court upon
judicial review. Either party may seek judicial review of the arbitrator’s decision
according to applicable law.

What To Do If You Find A Mistake On Your Statement: If you think there
is an error on your statement, write to us at:

To use this right, all of the following must be true:
(1) The Purchase must have been made in your home state or
within 100 miles of your current mailing address, and the Purchase
price must have been more than $50.00. (Note: Neither of these
are necessary if your Purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods
or services.)
(2) You must have used your Account for the Purchase.
(3) You must not yet have fully paid for the Purchase.

Expenses. If you initiate the arbitration, you will be responsible for the first
$50 of filing fees and other costs or fees, and we will pay the balance of the
filing fee and any costs or fees charged by the arbitrator above the first $50. If
you cannot afford to pay the first $50, we may pay this in our discretion. If we
initiate the arbitration, we will pay the filing fee and any costs or fees charged
by the arbitrator. Unless prohibited by law, the arbitrator may award fees, costs
and reasonable attorneys’ fees to the party who substantially prevails in the
arbitration.
Location of Arbitration. Unless you and we agree to a different location, the
arbitration will be conducted in the same city as the United States District
Court closest to your then current mailing address.
Small Claims Court. All parties, including related third parties, shall retain the
right to seek adjudication in a small claims court for Claims within the scope
of such court’s jurisdiction. Any Claim, which cannot be adjudicated within the
jurisdiction of a small claims court, shall be resolved by binding arbitration. Any
appeal of a judgment from a small claims court shall be resolved by binding
arbitration de novo (i.e. upon a fresh review of the facts).
Binding Effect and Survival. You and we agree that, except as specifically
provided for above, the arbitrator’s decision will be final and binding on all
parties subject to this Provision.This Provision is binding upon you, us, and the
heirs, successors, assigns, and related third parties of you and us.This Provision
shall survive (i) termination or changes in this Agreement, the Account, or the
relationship between you and us concerning the Account; (ii) the bankruptcy
of any party; and (iii) any transfer, sale or assignment of your Account, or any
amounts owed on your Account, to any other person or entity.
Severability. If any portion of this Provision is deemed invalid or unenforceable under any law or statute consistent with the FAA, such a finding shall
not invalidate any remaining portion of this Provision, the Agreement, or any
other agreement entered into by you with us. However, the prohibition on
class arbitration is not severable from the remainder of this Provision. In the
event that a court deems the prohibition on class arbitration to be invalid and
unenforceable, any subsequent class action or representative proceeding shall
be in a court of law and will not be subject to binding arbitration.
Right to Opt-Out. If you do not wish to agree to arbitrate all Claims in accordance with the terms and conditions of this section, you must advise us in
writing at the following address within 30 days of receiving this Agreement:
Helzberg Diamonds Private Account, P.O. Box 4499, Beaverton, OR 97076.
Clearly print or type your name and Account number and state that you

This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.

Helzberg Diamonds Private Account
P.O. Box 4499
Beaverton, OR 97076
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do we are not required to investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter: When we receive your
letter, we must do two things:
(1) Within 30 days of receiving your letter, we must tell you
that we received your letter.We will also tell you if we have
already corrected the error.
(2) Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your Statement, and we may continue
to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees.We will send you a statement
of the amount you owe and the date payment is due.We may then report you
as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning
your bill.We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has
been settled between us. If we do not follow all of the rules above, you do not
have to pay the first $50.00 of the amount you question even if your bill is
correct.

If all of the criteria above are met and you are still dissatisfied with the Purchase, contact us in writing at:
Helzberg Diamonds Private Account
P.O. Box 4499
Beaverton, OR 97076
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you
as delinquent.

STATE DISCLOSURES

Important account
information regarding your

Helzberg Diamonds

®

California Residents: A married applicant may apply for a separate Account.
As required by law, you are hereby notified that a negative credit reporting
reflecting on your credit record may be submitted to a Consumer Reporting
Agency if you fail to fulfill the terms of your credit obligations. After credit
approval, each applicant shall have the right to use the Account up to the Credit
Limit of the Account. Each applicant may be liable for amounts extended under
the plan to any joint applicant.
Delaware Residents: Service charges not in excess of those permitted by law
will be charged on the outstanding balances from month to month.
Kentucky Residents: You may pay the unpaid balance of your Account in
whole or in part at any time.
Maine Residents: Credit insurance provided herein is voluntary and you have
the right to cancel such credit insurance at any time.
New York and Vermont Residents: The Bank of Missouri may obtain a consumer report for any legitimate purpose in connection with your Account or
your application, including but not limited to reviewing, modifying, renewing and
collecting on your Account. Upon your request, we (The Bank of Missouri) will
inform you of the names and addresses of any Consumer Reporting Agencies
that have furnished the reports. New York residents may contact the New York
State Banking Department (1-800-518- 8866) to obtain a comparative list of
credit card rates, fees and grace periods.
Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all credit worthy customers, and that Consumer Reporting Agencies maintain separate credit histories on each individual
upon request.The Ohio Civil Rights Commission administers compliance with
this law.
Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement, or court order applying to marital property will
adversely affect a creditor’s interests unless prior to the time credit is granted,
the creditor is furnished with a copy of the agreement, statement, or court
order, or has actual knowledge of that provision.
14-HD-0298(4/18)

Private Account

Terms & Conditions

